  DEPARTMENT OF HOMELAND SECURITY

      Office of Inspector General


      Audit of Grant 2004-TK-TX-003 and
       2005-GH-T5-0001 Awarded to the
       National Domestic Preparedness
         Coalition of Orlando, Florida




               Office of Audits
OIG-06-34                            May 2006
                                                                               U.S. Department of Homeland Security
                                                                               Washington, DC 20525




                                                 May 5,2006

  MEMORANDUM FOR:                        Tracy A. Henke
                                         Assistant Secretary
                                         Office of Grants and Training
                                         Preparedness Directorate

  FROM.                                  David M Zava
                                         Assistant Inspe

  SUBJECT:                               A~lclito f Graizt 2004-TK-TX-0003 urzd 2005-GH-T5-0001
                                         Awarded to tlze Nc~tioiznlDovlzestic Preparedizess Conlitiorz o f
                                         Orlaizdo, Florida Audit Report No. 016-06-34


                                INTRODUCTION AND BACKGROUND

  The Office of Inspector General audited State Domestic Preparedness Equipment Support
  Program grant funds awarded by the Office of State and Local Government Coordination and
  Preparedness (SLGCP)' to the National Domestic Preparedness Coalition Incorporated of
  Orlando, Florida (NDPCI) under grants 2004-TK-TX-0003 and 2005-GH-T5-0001. The audit
  objective was to determine whether NDPCI accounted for and expended grant f~lndsin
  accordance with federal regulations and grant guidelines.

  The September 11, 2001 terrorist attacks identified a need for a uniform comprehensive method
  of performing community vulnerability assessments that would identify critical facilit~es,
  infrastructure, and events and identify and prioritize the threats to each. In January 2003,
  employees with the Orange County Sheriff's Office organized NDPCI as a Florida non-profit
  corporation that is comprised of public and private partners. The Sheriff's Office played a major
  role in organizing the management of, and providing technical expertise to NDPCI whose current
  Executive Director is a former Sheriff Captain. NDPCI developed the Homeland Security
  Comprehensive Assessment Model (HLS-CAM) to perform comprehensive vulnerability
  assessments for communities and community leaders.

  SLGCP's Office for Domestic Preparedness (ODPj2publishes a catalog of commercially
  available products to assist communities combat terrorism. ODP awarded NDPCI $654,383
  under grant number 2004-TK-TX-0003 to demonstrate and evaluate the HLS-CAM for inclusion
  in that catalog. ODP approved a grant performance period of March 2004 to A~lgust2004.




SLGCP is now the Office of Grants and Training under the Preparedness Directorate.
ODP was disbanded and lricorporated into the Office of Grants and Training.
Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General
(OIG) at (202) 254-4100, fax your request to (202) 254-4285, or visit the OIG
web site at www.dhs.gov/oig.

OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind
of criminal or noncriminal misconduct relative to department programs or
operations, call the OIG Hotline at 1-800-323-8603; write to DHS Office of
Inspector General/MAIL STOP 2600, Attention: Office of Investigations –
Hotline, 245 Murray Drive, SW, Building 410, Washington, DC 20528; fax
the complaint to (202) 254-4292; or email DHSOIGHOTLINE@dhs.gov. The
OIG seeks to protect the identity of each writer and caller.
